-5613
In the

ONTTSt) STATES SUPREME COISRT
October Term* 2020

IK IT!? SMITH o #221412
Petitioner
v.
NOAH NAGY

Respondent

FILED
AUG 1 8 2020
OFFICE OF THE CLERK
SUPREME COURT. U S.

Petit!©m Cor a Writ ©f Certiorari t© the
TJntt&d States Court of Appeals
fro® the Sixth Circuit

PETITION FOE WRIT OP CERTIORARI'

Keith Stidths Pro @e
WOC Bo» 221412
Co 11 on Cor r.. Fa © I1 i t y
3500 ft. El» Street
Jaetson, Michigan 49201
Pa tec? s

IS

Vpypt?.)

QUEST TOMS PRESENTED
T*

BTI) TUB TRIM. COURT INTERFERE WITH PETITIONER^ S'WTi:
^.NID FEDERAL CONSTITUTIONAL RIGHTS TO A FI\TM^Jtrl?¥ TRIM
WWEM SUB REFUSED TO HOUR AN EVIDENTIARY HEARING
PURSUANT THIS COURT'S RULING IN
STATES, 347 U.S. 721 (1954?f WHERE THERE WAS E^RANKOOS
OCWTACT r»'TF A DELIBERATING JUROR, AND WHERE THE COUP!",
PA W UPON AN INADEQUATE RECORD, ERRONEOUSLY DETERMINED
the"circumstances of tub contact, trp impact of the
extraneous contact upon the juror, the PREJUDICIAL
EFFECT OF TWK CONTACT UPON THE DEFENDANT, AND HU.
r»iT»RFIOTWD PARTIES WFRR NOT PERMITTED TO PARTICIPATED

TABLE OP CONTENTS
Table of Authorities

ii

Question. Presented

iii
1

Opinions Below

2

Jurisdiction
Constitution and Statutory
Provisions Involved

?

7
Statement
2

Seasons f © r G r a n 15 r» g P e t i t i o n

7

Conclusion

i

TABLE OP AUTHORITIES
UKITBS STATES SUPREME COURT CASES2
jacfceon v. Virginia
443 O.S. 307 (1979)

2

Readier
United States
347 0.,S, 771 C l 954}

1, 3, 4 n 5, 6

Tanner v. United States
463 U.S. I9?<. 115 C1987)

7

FEDERAL CASES*
Ivina v.’ Horton
914 F.3d 1027 (6th Cir. 2019)

5

Land v. Bobby
809 P.3d @03 (6th Cir. 2018)

6

Mason v. Mitchell
320 F.3d 604 (8th Cir. 20035

6

Robinson v. Polls

438 F.3d 350 (4th Cir. 2006)

6

Uni ted States v. Harris
881 F.3d 945 (6th Cir. 2018)

5

United States v. Lanier
870 F.3d 546# 549 6th Cir. 3017)

5

United States v. Ovens
426 F3d 80© (6th Cir. 7006)

0

CONSTITUTIONAL PROVISIONS*
1

6TM AMBfrDNSNT

STATUTES*
28 U.S.C. § 1254(1 )

2

28 U.S.C. § 2301(c).

2

ii

In the
UNITED STATES SUPREME COURT
October Term

2020

KEITH SMITH, #221412

Pei!iI oner*
v«
NOAH NAGY
Respondent
Petitsfor a Krit of Certiorari to the
United States Court of Appeals
fro® the Sixth Circuit;
PETITION POE WRIT OF CERTIORARI
Keith Smith {hereinafter -petitioner-) petitions fox a
writ of certiorari to review the judgment of the United
States Court of Appeals for the Sixth Circuit, wh i cb
judgment affirmed the denial, of by the District Court for
the Eastern District of Michigan of his ?B U.S.C. § 2254
petition for writ of habeas corpus fro® criminal convictions
imposed by the Third Judicial Circuit Court for the County
of W’ayne, Detroit, Michigan - which was affirmed by the
Michigan Court of Appeals, and leave denied by the Michigan
Supreme Court

upholding the erroneous decision of the trial

court in denying petitioner a fair trial when (1) she
refused to hold n evidentiary hearing pursuant to this
court's ruling in Re.®fj.er_!f«^jCTpjLted..,.pts! tes, ?47 B.S. 271
C1954), where there was extraneous contact wlth the
deliberating jury during petitioner's trial. However, the
1

Court inadequately determined that circumstances of the
contact# the impact of the extraneous contact upon the
juror# the prejudicial effect of the contact upon the
pet i t i on e r # a » d

all interested parties were not permitted

to participate*

(21 There was insufficient evidence to

support the jury’s guilty verdicts

and the Michigan Court

of Appeals unreasonably applied Jackson v« Virginia# 443
ii.S. 307 (1919K

CS'ii The district court erred ! failing to

consider the import of the newly discovered evidence which
went to support petitioner’s claim of actual innocence.
OPINIONS BELOW
The opinions of the Court of Appeals (Pet.. App la 13a'i and the district court opinion and judgment
(Pat. App. Ida - 36aK
JOTISMeTION

The judgment of the court of appeals was entered on
June 15

2020. [App. la]

The jurisdiction of this Court is

invoked under 28 O.S.C. § 1254(11.

This petition is timely

Sjursuant to 28 tf.S.C. § 2101(cl.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED

The Sixth Amendment to the Wilted States Constitution
Guarantees a criminal defendant the right to be tried by an
impartial jury and be given a fair trial.
STATEMENT
The facte underlying this claim is detailed in the
©pinions of the lower courts attached hereto.

?

Clearly established federal 1 aw mandates that the trial
court roust hold a ggminer bearing if a defendant asserts a
colorable claim of extraneous influence on the jury.
Before sentencing# petitioner alleged that a juror caroe
forward and admitted that more than one member of the jury
changed their vote from not guilty to guilty based on
incorrect outside information regarding the potential
sentence.
hearing

During the argument on whether to grant a
the trial court acknowledged that the jurors

admitted after trial they were confused that felony murder
was equivalent to first degree murder

and that they were

not sure about whether petitioner committed the offense.
Nonetheless# the trial court denied petitioner's request for
an evidentiary hearing to explore whether the Introduction
of the potential sentence information affected the verdict.
REASONS FOR GRANTING PETITION
I.

THE TRIAL COURT INTERFERE!1 WITH -PETITIONER'S STATE M-sD
FEDERAL CONSTITUTIONAL RIGHTS TO A FAIR JURY TRIAL WREN
SHE REFUSED TO HOLD AN EVIDENTIARY REARING PURSUANT
THIS COURT'S RULING IN gFNMERi_..y._UNITED_STJTiS# 347
p.S. 227 (1954)# WHERE THERE WAS EXTRANEOUS CONTACT
BASED
WITH A DELIBERATING JUROR AND WHERE THE COURT# ~......‘
UPON AN INADEQUATE RECORD# ERRONEOUSLY DETERMINED THE
CIRCUMSTANCES OF THE CONTACT, THE IMPACT OF THE
EXTRANEOUS CONTACT UPON THE JUROR# THE PREJUDICIAL
EFFECT OF THE CONTACT UPON THE DEFENDANT# AND ALL
INTERESTED PARTIES WERE NOT PERMITTED TO PARTI Cl PATE?The State's argument regarding petitioner's entitlement

to a Remitter hearing departed from the underlying facts and
governing law.
First# the state argued that petitioner conceded there
was no external influence on the jury that coulc justify a
3

On the contrary

RejBEer hearing,

petitioner’s trial

attorney expl i ci tly argued that the inter bib t i on regai. omy
potential punishments came from outside jury room,

Indeed,

petitioner•s counsel conceded that she would not have asheo
for a Beamier hearing if she believed that the jury’s
discussions regarding potential punishments were generated
by internal speculation.
Second

the State argued that the jury’s consideration.

of potential punishment is not art external influence that
could justify a Semmer hearing,

This argument ignores

well-establisbed Supreme Court and Sixth Circuit precedent
indicating that a Reamer hearing is required if the
defendant alleges a juror considered information obtained
from a source outside of the trial.

Contrary to the State's

contention^ petitioner made clear during oral argument hat
his request for a Reamer hearing was premised on an
understanding that the potential punishment information caste
from outside the jury rooms
The case
wouldn’t
external
not that

law is if it was internal consideration, we
even be here. If. has to be something that is
to the jury, and their deliberation, It is
they talked about, something inside, [it’s]

(Trial Transcript, at Page 612, (emphasis added)).
as this excerpt of the argument shows

Indeed,

the on 1 y cor$cess J on

petitioner made in state court was that he would not have
requested a Reamer hearing if he believed that the jury's
discussion about potential punishments was a product of the
j ury9 s i n ta,ftnal

i>■?t £' -tit,
A

sn.foraati-an

obtained fro® outside of the jury roora.
Petitioner hereby asserts that the State Court and the
subsequent courts on review, applied and acquiesced to the
application of and improper standard.
The Sixth Circuit Court of Appeals' finding in the
instant case conflicts with earlier recent decision out of
hat court.

For example, l£incL_y^_Horton, 914 F.3d 102^ {6th

Cir. 2019), (a habeas case) the court held that a petitioner
merely needs to show

"that extraneous infornation ®av have

tainted the jury" to be entitled to a remand for a Remitter
hearing. (Emphasis added in original).

In

states

v., Harris, 881 F.3d 945 (6th Cir. 203 8), the court found
that, "[a]’though Harris did not establish that Juror 12 was
exposed to an unauthorised eomiaunieat Jon, Karris did present
a colorable claim of extraneous influence, which
neeessl bated investigati on.. "

This conclusion was easy to

reach because this Court’s standard for entitlement to a
Keager hearing leaves little discretion for the trial
court.

•'Where a colorable claim of extraneous influence has

been raised, the court must hold a Remitter hearing to afford
t h e d e f e n d a n t a n o p p o r t u n i t y t o e s t a b 1 i s h a c t u a 1 h i a s. "
Blii®^,..Stahes„v^.„Lanjer, 870 F.3d 546

549 6th

Cir. 2037)(emphasis added}? see also Ewing, 914 F. 3d at
1030-1031 (remanding for Remmer hearing because "without a
hearing, there is too much that is unknown about the
deliberation..."); Harris, 88! F.3d at 953 5. n.4 (remanding
for a Remitter hear! ng even though the defendant' s claim
5

relied on multiple* layers of pure speculation.
Under this standard

o n c e p e t i t i o n e r c 1 a i me d t b a t a

juror bad introduced outside information regarding potential
punishments, clearly established federal law triggered the
trial court * s "duty to investigate and determine whether
there Kay have been a violation." Farris, P81 F.3d at 953.
To bold otherwise, voisld undo the purpose of a Rejamer
hearing, which is to provide the defendant with the
opportunity to "determine the circumstances, the impact on
the juror[s], and whether the information was
889 'F.3d BO3 (6th Cir. 2018).

prejudicial. " Land_v.-s„Jobby

In the instant case, a preliminary hearing was held
but no record was made as to the

urors being questioned as

to what was the source of the information.
From the trial court to present, no court considered
the fact- that

*[tt]nder clearly established Supreme Court

case law, an influence is not an interna! one If it {1) is
extraneous prejudicial information; i.e, information that
was not admitted into evidence hut nevertheless bears on a
fact at issue ir» the ease..." Robinson v._;Polb;, 438 F.3d
350,363 (4th Cir. 2006).

There is no requirement that a

party outside the jury bring the extraneous information to
Instead, a juror's outside

the attention of the jury.

research is sufficient, as illustrated by the textbooh
example of a juror conducting "an out of court experiment. *’
EBiter!.StateS_v<._jOwen§, 426 F3d '80ft, 805 (Gth
Cir. 2005) (c filing Mason.v. Mitchell, 320 F.3d 604, 638 (6th
6

Cfr. 2003).

Iff! Tgnner_w.„.|toit£fmJtat©s

tills restart

explained that information obtained by a juror from a
newspaper is extraneous influence. 483 G.S. 107/ 118 (1987).
Where obtaining information by the jiar©r[s] cowl?! have
been fro® any number of inappropriate eeerces

i t va b

necessary that the trial court inquire into what the source
actually vae to protect the petitioner's right to a fair
trial in accordance with the Sixth Amendment to the United
States Constitution.

Having not done, the subsequent

judicial events were based upon an incomplete and
speculative record.
RELIEF SOUGHT
WHEREFORE* for the reasons stated, petitioner prays
that this Honorable Court will GMPbis petition.
Respect f w11y

smbari tied,

Keith Smith, Pro se
MDOC Ho. 221.41?
Cotton Corr. Facility
3500 W. Elm Street
Jackson, Michi gait 49201

/3

Dated?

CERTIFICATE CF SERVICE
I, Keith Smith, certify that I served a copy of the
foregoing petition for writ of certiorari upon counsel for
the Respondent, John S, Pallas, Assistant Attorney General,
Criminal Appellate Division, p.O. Box 30217,
Lansing. Michigan, 48909, by first class mail on Wejj/J' day
o f ftoJ’oJ-r- , 2 0 2 0.

KEITH SMITH
MDOC Mo. 221412
Cotton Corr. Facility
3500 M. Elm Street
Jackson, Michigan 49.201
Dateds

®jp!i oil % f

f

